OIG Investigative Reports, Phoenix, AZ., May 04, 2012 - Four Inddicted in Federal Student Financial Aid Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT of ARIZONA
Office of the United States Attorney, Ann Birmingham Scheel
District of Arizona
FOR IMMEDIATE RELEASE
May 04, 2012
Public Affairs
Bill Solomon
Telephone:  602.514.7547
Cell:  602.920.1424
william.solomon@usdoj.gov
www.justice.gov/usao/az
Four Indicted in Federal Student Financial Aid Scheme
PHOENIX – On May 2, 2012, federal authorities arrested three women accused of participating in federal student financial aid fraud involving inmates of Perryville Prison. Arrested were Elizabeth Meza, 32, Sandra Lopez, 25, and Denise Wheeler, 43, all residents of Glendale, Ariz. Analisa Delgado, 33, who is currently serving a prison sentence in Perryville Prison, is also alleged to be part of the fraud.
The four women were indicted by a federal grand jury on April 25, 2012, on charges of conspiracy, wire fraud, theft of public funds, and aggravated identity theft. The indictment alleges that the four used a variety of identities to register for on-line classes at Rio Salado College and to apply for federal student financial aid in the form of loans and grants. The federal government approved more than $150,000 in funds based on fraudulent applications, with approximately $71,000 having been disbursed. An investigation conducted by the U.S. Department of Education revealed that dozens more fraudulent applications were in the works.
A conviction for wire fraud carries a maximum penalty of 30 years in prison, a $1,000,000 fine, or both. A conviction for theft of government funds carries a maximum penalty of 10 years in prison, a $250,000 fine, or both. A conviction for conspiracy carries a maximum penalty of 5 years in prison, a $250,000 fine, or both. A conviction for aggravated identity theft carries a mandatory, consecutive, 2-year prison sentence, a $250,000 fine, or both. In determining an actual sentence, U.S. District Judge Neil V. Wake will consult, but is not bound by, the U.S. Sentencing Guidelines, which provide appropriate sentencing ranges.
An indictment is simply a method by which a person is charged with criminal activity and raises no inference of guilt. An individual is presumed innocent until competent evidence is presented to a jury that establishes guilt beyond a reasonable doubt.
The investigation preceding the indictment was conducted by the U.S. Department of Education, Office of Inspector General. The prosecution is being handled by Monica Klapper, Assistant U.S. Attorney, District of Arizona, Phoenix.
CASE NUMBER: CR-12-0859-PHX-NVW
RELEASE NUMBER: 2012-111(Delgado_etal)
Indictment (PDF)
# # #
Top
Printable view
Last Modified: 05/08/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov